CERTIFICATE OF COMPLIANCE
Case No. 20-322
Caption: William P. Barr, Attorney General, et al.
v. Esteban Aleman Gonzalez, et al.
As required by Supreme Court Rule 33.l(h),
I certify that the document contains 8,945 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33. l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on December 16, 2020

Record Press, Inc.

Sworn to before me on
December 16, 2020
ALESSANDRA KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires A ri 18 2024

